Supreme Court, U.S.
FILED

JAN 0 7 2020
No.

OFFICE OF THE CLERK

In The

Supreme Court of the United States
NIKOLE MARIE HUNTER, PETITIONER
v.
GOVERNMENT EMPLOYEES INSURANCE COMPANY
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
NIKOLE M HUNTER
Pro-Se Appellant
108 Cinder Nook Dr,
Pickens, SC. 29671
(864) 436-3250

a

RECEIVED
MAY 2 0 2020

I

QUESTIONS PRESENTED
This Fourth Circuit decision affirming the
District
Courts
order
“reflected
a
clear
misapprehension of summary judgment standards in
light of [Supreme Court] precedents” — such as what
happened in Tolan v. Cotton, 572 U.S. 650, 659, 134
S.Ct. 1861, 1868 (2014) (per curiam). Ignoring
Hunters’ detailed facts violated procedural rules and
Supreme Court “axiom[s]”, “general rule[sj”, and
“fundamental principle [s]” governing summary
judgment. Id., 134 S.Ct. at 651, 656, 660.
•

Supreme Court precedents require that, “The
evidence of the nonmovant is to he believed, and all
justifiable inferences are to be drawn in his favor.”
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 255,
106 S.Ct. 2505 (1986). That did NOT happen here.

•

Local Rule 56.1(c) following those precedents was
NOT followed:

Thus, the QUESTIONS PRESENTED are as follows:
1. Whether the District Court, failing to review such
evidence and ignoring the Plaintiffs expert witness
testimony, conflict with Supreme Court precedent
regarding the general rule that a ‘judge’s function’
at summary judgment is not ‘to weigh the evidence
and determine the truth of the matter but to
determine whether there is a genuine issue for trial.’
Anderson, All U.S., at 249 .... Summary judgment is
appropriate only if‘the movant shows that there is no
genuine issue as to any material fact and the movant
is entitled to judgment as a matter of law.’ [FRCP]
56(a). ... a court must view the evidence ‘in the light
most favorable to the opposing party.’ Adickes v. S.H.
Kress & Co., 398 U.S. 144, 157, 90 S.Ct. 1598 ...
(1970); see also Anderson, supra, at 255.... ” Tolan v.
Cotton, supra, 134 S.Ct. at 1866.

u.
2. Whether an Insurer purposefully delaying the
tendering of policy limits to their policyholder
constitutes Breach of Contract, when the misuse of
claims handling software was proven to undervalue
the claim and the policyholder was offered the
proceeds only in exchange for releasing any future
bad faith action against their carrier. Wisinski v.
American Commerce Group Inc 2011 U.S. Dist. Lexis
320, *37-38 (W.D.Pa January 4, 2011). An insurance
carrier that attempts to coerce an insurer to release
her bad faith claim when the policy limit was offered
as settlement constitutes bad faith. Tadlock Painting
Co v. Maryland Cos. Co 473 S.E.2d 2 (S C. 1996) We
recognize the existence of a cause of action for breach
of the implied covenant of good faith and fair dealing
by an insured against his or her insurer for
consequential damages allegedly suffered because of
the insurer's bad faith handling of the claims. Polcyn
v. Liberty Mut’l Ins. Co., 2013 U.S. Dist. LEXIS
76193 (S.D. Cal. May 30, 2013). The Court
considered whether the carrier’s late payment of the
insureds’economic damages eliminated a claim for
bad faith and held that it does not.

Ill

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

1

TABLE OF AUTHORITIES

IV

OPINIONS BELOW

5

JURISDICTION

5

RELEVANT PROVISIONS INVOLVED

6

STATEMENT

6

REASONS FOR GRANTING THE PETITION

8

EXCEPTIONAL IMPORTANCE.

11

CONCLUSION.

15

INDEX FOR APPENDICES
APPENDIX A
Fourth Circuit decision to deny the
Petition for rehearing (October 29, 2019)
APPENDIX B
Fourth Circuit decision to affirm the
District Courts Judgment. (September 27, 2019)
APPENDIX C
District Court for the District of South Carolina
Order to grant GEICO motion for Summary Judgment.
(February 19, 2019)

IV.

TABLE OF AUTHORITIES
Page
Cases
ADICKES v. S.H KRESS & Co., U.S. 144,157,90............. i,10
ANDERSON v. LIBERTY LOBBY, Inc., 477 U.S. 242
106 S. CT. 2505 (1986).......................................
i,
HARPER v. GEICO Ed. NY 2013. Case 2:09-cv-02254LDW-GRB................................................................ 12
HARVEY v. GEICO GEN. Ins. Co., No. SC17-85, 2018
WL 4496566, at *1 (Fla. Sept. 20, 2018)................. 14
HAYES v. HARLEYSVILLE Mut. Ins. Co., 841 A.2d 121
12
(Pa.SUPER. 2003)................................................. .
HINES v. GEICO INDEMNITY COMPANY,
No. 8:2014cv01062 Document 139 (M.D. Fla. 2015)
CERT. DENIED, 444 U.S. 991, 100........... .............. 14
GONZALES ET AL v. GEICO GENERAL INSURANCE
COMPANY, No. 8:2015cv00240 - Document 185
(M.D. Fla. 2016)........................................................ 14
POLCYN v. LIBERTY Mut’l Ins. Co., 2013 U.S. Dist.
LEXIS 76193 (S.D. Cal. May 30, 2013)....... ............ n
TADLOCK PAINTING Co v MARYLAND CAS.
Co 473 S.E.2d 52 (S.C. 1996)................................... li
THOMAS v. NUGENT, 572 U.S. 1111, 134 S. CT 2289.... 9
TOLAN v. COTTON, 572 U.S. 650. 134 S. CT 1861, 188
L. E. 2D 895 (2014) (PER CURIAM)................... i,7,9,ll
U.S. v. CITY OF COLUMBIA, MO., 709 F. SUPP. 174,
175 (W.D. MO. 1989)............................................
10
WISINKSKI v, AMERICAN COMMERCE GROUP INC.
2011 U.S. DIST. LEXIS 320, *37-38
(W.D.Pa January 4, 2011)-------------- ------ -------- n

5.
Rules
Supreme Court Rule 10(c)
Supreme Court Rule 10(a)
Supreme Court Rule 13.3 .

11
15
5

PETITION FOR A WRIT OF CERTIORARI
Petitioner Nikole Hunter respectfully petitions
for a writ of certiorari to review the judgment of the
United States Fourth Circuit in this case.
OPINIONS BELOW
The opinion of the Fourth Circuit is reproduced
at App. B and is unpublished. The summary judgment
opinion of the District Court for the District of South
Carolina is reproduced at App. C and is unpublished.

JURISDICTION
A petition for rehearing was timely filed in my
case with the Fourth Circuit, yet was denied on
October 29. 2019 and is listed as Appendix A’ The
time for filing a petition for a writ of certiorari runs
through the date of Saturday, January 27. 2020
pursuant to Supreme Court Rule 13.3. This Court has
jurisdiction under 28 U.S.C. § 1254(1).

6.

RELEVANT PROVISIONS INVOLVED
This case involves a statutory provision — the Federal
Tort Claims Act, 28 U.S.C. § 1346(b)(1).
“...the district courts ... shall have exclusive
jurisdiction of civil actions on claims against the TortFeasor, for money damages ... for injury or loss of
property, or personal injury or death caused by the
negligent or wrongful act or omission of any private
person, would be liable to the claimant in accordance
with the law of the place where the act or omission
occurred.”

STATEMENT
1 Factual Background
Plaintiff filed a Bad Faith suit against GEICO
9/7/2016 alleging breach of contract including;
a) purposeful withholding and delay of policy limits by
18 months which harmed the injured policyholder and
then only releasing policy proceeds conditional of
Plaintiff dropping any further bad faith action.
b) Bad Faith Claims handling: using a computer
program that formulated an artificial range for
adjusters to negotiate the claim based on the omission
of physicians assessed Whole Person Impairment
rating and future treatment.

2 The District Court granted GEICO’s motion for
Summary Judgment on February 1, 2019 despite the
Plaintiffs filing 155 pages of exhibits evidencing bad
faith conduct, and Expert Witness’ report of GEICO’s
claims handling deficiencies; Plaintiff was not even
offered a hearing despite the fact that the case was
docketed for a trial on or after October 23, 2017, yet
delayed due to the transfer of the assigned judge to the
fourth circuit.

8.
Hunter argues that GEICO falsely responded to the
concise statement of material facts that she tabled in
the Interrogatories, of which GEICO’s original
statement of answers included:
1. That no software was used to evaluate the
policyholders UIM claim, which is in stark contrast to
an internal notation from a claims Supervisor stating
‘$20k Granted Authority No Adj to Reserves based on
High End of Cl Iq’; Referring to the in-house computer
program ‘Claim IQ’.
2. When questioned about whether incentives or bonuses
were offered to claims adjusters, defense counsel
answered ‘No. Employees are paid a straight salary’;
however, under deposition all three (3) adjusters
acknowledge that they participate in an annual profit
sharing program.
Thus, the panel opinion basically excused the District
Court for their failures to comply with Local Rules
which comport with Supreme Court precedent on how
to decide summary judgment issues.
Additionally, the panel opinion went further to
hold that they ‘find no reversible error’; therefore,
none of Hunter’s proposed facts contradict a material
fact that the district court relied on in conducting its
summary judgment analysis...” with the claimed
result that, “...none of [Hunter’s] facts demonstrate
that GEICO breached the contract and the implied
covenant of good faith and fair dealing.
The reality is that GEICO’s submitted answers to
interrogatories were not consistent with Adjusters
individual responses during deposition thus further
highlighting genuine issues of material fact.
REASONS FOR GRANTING THE PETITION
a)

Fourth Circuit decision conflicts with the
Supreme Court decision

9.
b) The case presents an issue of national
importance.
1. “...a United States court of appeals has
decided...an important federal question in a
way that conflicts with relevant decisions of this
Court.” Supreme Court Rule 10(c)
As outlined above, Tolan v. Cotton, supra,
strongly and dramatically set forth its holding as to
how Supreme Court precedent firmly establishes that
the “axioms,” “general rules,” and “fundamental
principles” direct how summary judgment decisions
are to be made. When those are not followed, vacating
the circuit decision and remand are required. That
was true in Tolan v. Cotton, and it is likewise true
here. The rationale for such a ruling is set forth in
detail herein.
The same Tolan-like result was reached in
Thomas v. Nugent, 572 U.S. 1111, 134 S.Ct. 2289
(Mem), 189 L.Ed.2d 169 (2014) two weeks after the
Tolan decision, to wit:
“On petition for writ of certiorari to the United
States Court of Appeals for the Eighth Circuit
Petition for writ of certiorari granted.
Judgment vacated, and case remanded to the
United States Court of Appeals for the Eighth
Circuit for further review of Appeals and which
has long been mandatorily required by the
United States Supreme Court’s precedents,
axioms, general rules, and fundamental
principles.”
Also, the Tolan opinion, supra, 134 S.Ct. at 1868,
referred to other cases where Supreme court action
has been deemed necessary to correct “a clear
misapprehension of summary judgment standards in
light of [Supreme court] precedents”:

10.
The District Court and the Fourth Circuit in
this case basically claim to be exempt from the axioms,
general rules, and fundamental principles which have
historically governed the processing of summary
judgment motions.
What happened in this case — denying Ms.
Hunter that to which she was entitled by rule and by
case law — can only be seen as departing from what
the Supreme Court has held to be the principles
according to which summary judgment decisions are
to be made:
“... the court must “view the facts and draw
reasonable inferences ‘in the light most favorable to
the party opposing the ... motion.’
“This court still has the ‘obligation to view the facts in
the light most favorable to the adverse party and to
allow the adverse party the benefit of all reasonable
inferences to be drawn from the evidence.’ ”f/.S. v. City
of Columbia, Mo., 709 F. Supp. 174, 175 (W.D. Mo.
1989), citing Adickes v. S.H. Kress & Co., 398 U.S. 144,
157, 90 S.Ct. 1598, 1608, ... (1970);
These principles are wholly violated when a party
refuses to follow local rules on evidence presentation
and the District Court and the Appellate Court
thereafter refuses to apply the mandated evidentiary
consequence. These material facts establish the
claims of Bad Faith Claims handling and purposeful
delay of tender policy limits further harming the
injured Plaintiff.
The panel opinion’s finding of ‘no reversible action’
cannot be squared with the reality of the record,
particularly when viewed “in the fight most favorable
to the opposing party.” Adickes v. S.H. Kress & Co.,
398 U.S. 144, 157, 90 S.Ct. 1596, 26 L.Ed.2d 142
(1970) and see also Anderson, supra, at 255, 106 S.Ct.

11.
2505, all as quoted and cited in Tolan v. Cotton,
supra, at 1866.
•

The current panel opinion nullifies Local Rule
56.1(c).

•

The current panel opinion provides precedent
for courts to
(a) ignore altogether the non-movant’s position,
(b) view no facts in the fight most favorable to
the non-movant, and
(c) deny the non-movant the benefit of
reasonable inferences.

2. EXCEPTIONAL IMPORTANCE
A 2012 Consumer Federation of America (CFA) report
headed by a former Allstate executive revealed that
Insurers nationwide were using Claim Evaluation
Software designed to purposefully undervalue Bodily
Injury Claims. This was enabled by the software
being ‘tuned’ to downgrade the severity or omit
injuries sustained in the accident as a form of cost
containment; Adjusters were being pressured to use
the artificial range calculated by the program over
independent judgment.
CFA recommended that state insurance regulators
and the National Association of Insurance
Commissioners (NAIC) implement both policy
changes and ongoing operational measures to better
protect consumers from insurers that manipulate
‘Colossus’ and similar systems to unjustifiably lower
claims’ payouts. - THIS HAS NOT HAPPENED, it
was further reported that ‘few consumers have
knowledge of these practices, while even less
understand the significant impact that the practices
can have on their financial lives.’
The United States Congress, House Committee on
Financial Services reported in October 2007 on the

12.
need for Insurance Regulatory Reform adding ‘The
use of these programs severs the promise of good faith
that insurers owe to their policyholders.’
In this action, Plaintiff highlights the critical
importance of making insurers accountable for their
misuse of Claims evaluation software. In this current
instance GEICO had been caught red-handed
purposefully undervaluing the Plaintiffs’ claims using
their in-house program ‘Claims IQ’ and when caught
out, then extorting the policyholder into removing any
future bad faith legal action in exchange for rightful
policy proceeds.
This action by an Insurer is not an isolated
incident: Hayes v. Harlevsville. 841A. 2d 121 (Pa.
Super. 2003) Alloc. Denied 870 A. 2d 322 (Pa. 2005).
(Exhibits filed against GEICO in this case show a
notation made by a claim supervisor doing just that;
rejecting a claims adjusters’ manual evaluation over
that of a computer calculated range which is designed
to undervalue claims) and yet the district court and
fourth circuit dismissed this critical information and
instead incorrectly sided with the moving party.
As result of such claims handling misconduct, a
majority of insureds nationwide are losing up to 80%
of their rightful claim value despite being first party
policyholders and having paid their premiums in full.
Claim centers have wrongfully become Profit Centers
with Expert Witnesses in other recent Bad Faith
action against GEICO reporting that claim staff have
been incentivized to reduce claim payout to meet their
Average Loss Payment (ALP) Goals.
As such their participation in Annual Profit Sharing
Programs, of which (GEICO) defense counsel deny,
helps them attain their Profit share bonus, which in

13.
many cases exceed 17% of their annual gross salary,
by keeping their claim negotiation’s within the
programs
artificial
calculated
range,
thus
underpaying their policyholders. In Harper v GEICO
(Ed. NY 2013. No. SC17-85, 2018 WL 4496566), under
deposition a claims adjuster stated that ’if a claim is
settled outside the range, that is a mark down on your
report card — a reprimand, ’
This tactic unknown to many Plaintiff Attorneys
pertains to the undervalued range produced by the inhouse program ‘Claim IQ’ which negates any future
pain and suffering value based on a physician’s
assessed Whole Person Impairment rating; This is the
single largest value driver in a Bodily Injury claim
which is simply ignored by their proprietary in-house
system. This as well as ignoring any assessment for
future treatment which are all compensable damages
due under an auto accident bodily injury claim are
deleted from the claim evaluation.
In this claim, Ms. Hunters’ significant Whole Person
Impairment rating of 34% was Input into ‘Claim IQ’
program, however, the value applied was $0 (zero). All
of these purposeful and deceitful methods of cost
containment have been available for review by both
District Court and Fourth Circuit — amazingly not one
comment was made, a clear lack of favor viewed
towards the non-moving party and certainly not
protecting the interests of the American consumers
who ‘will be in the fight of their life’, to receive fair
compensation under their insurance policy.
GEICO like many other insurers specifically do not
mention any contractual provision as a result of
delaying payment of insurance proceeds in their
contract, which is their ‘get out of jail card’ when they
purposeful delay payment of policy proceeds.
Under deposition questioning, the Plaintiff and
Expert witness were unable to contest the delay in
tendering the limits due to the yes/no line of
questioning. As a result, the District Court failed to
review the critical 155 pages of exhibits which favored
the Plaintiffs, which again highlights the deficiencies

15.
deny injuries that would otherwise increase the
reserves set on a claim. This case has clearly
demonstrated that this practice is still in use behind
closed doors and is potentially robbing hundreds of
millions of dollars annually from policyholders for the
sole purpose of putting the Insurers interest over that
of their insured, increasing shareholder’s financial
interests at the expense of policyholders.
CONCLUSION
The decision to grant GEICO motion for
Summary Judgment CANNOT BE SQUARED WITH
“viewing the facts in the light most favorable”
OR
granting “the benefit of all reasonable inferences.”
The Supreme Court is urged to grant this Petition for
Certiorari and remand the case for trial in the District
Court.
Respectfully submitted,
NIKOLE M HUNTER

Pro-Se Appellant) /
Signedix^yCjLlLXJ/S
108 Cinder Nook Dr,
Pickens, SC. 29671
(864) 436-3250
soundestate@gmail. com

Dated. O/./Alfy&CfQQ

